                        U.S. Department of Agriculture

                           Office of Inspector General
                                       Midwest Region




              Audit Report

       Identification and Reporting of
Improper Payments in FSA High-Risk Programs




                           Report No. 03601-0016-Ch
                                         March 2008
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                       Washington, D.C. 20250




DATE:          March 27, 2008

REPLY TO
ATTN. OF:      03601-0016-Ch

TO:            Teresa C. Lasseter
               Administrator
               Farm Service Agency

THROUGH: T. Mike McCann
         Director
         FSA Operations Review and Analysis Staff

FROM:          Robert W. Young          /s/
               Assistant Inspector General
                for Audit

SUBJECT:       Identification and Reporting of Improper Payments in FSA High-Risk Programs


This report presents the results of our audit of the Farm Service Agency’s (FSA) process to
quantify improper payments. FSA’s process encompasses its seven high-risk programs reported
in the Department of Agriculture’s (USDA) fiscal year (FY) 2007 Performance and
Accountability Report (PAR). The audit was conducted at the request of USDA’s Chief
Financial Officer. Your agency’s response to the draft report, dated March 12, 2008, is included
in its entirety as exhibit A, with excerpts and the Office of Inspector General’s (OIG) position
incorporated into the relevant section of the report.

The purpose of the audit was to provide reasonable assurance that FSA’s estimates were accurate
because of questionable reporting in the previous year. Specifically, the objectives of the audit
were to evaluate (1) the established criteria and programmatic reviews for determining improper
payments, (2) the statistical process used to select and estimate the extent of improper payments,
and (3) the corrective actions for improper payments identified in the sample. Based on the
results of our audit, we concluded the process used by FSA for the FY 2007 PAR was sufficient
and would result in reliable estimates of improper payments. During the audit, we reported
several issues to FSA officials who corrected them before final projections were made. These
issues are described in the Findings and Recommendations section of this report.
Teresa C. Lasseter                                                                        2


Based on the FSA response, dated March 12, 2008, we have reached management decision on
Recommendation 1. Please follow your agency’s internal procedures in forwarding
documentation for final action to the Office of the Chief Financial Officer.

We have not reached management decision for Recommendation 2. Management decision on
this recommendation can be reached once you have provided us with the additional information
requested in the report section titled, OIG Position, following the recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the timeframe for implementing the recommendation. Please note that the regulation
requires a management decision to be reached on all findings within a maximum of 6 months
from report issuance, and final action to be taken within 1 year of each management decision.

We appreciate the courtesies and cooperation extended to us by your staff.
Teresa C. Lasseter                                                                              3


BACKGROUND

The Improper Payments Information Act of 2002 (IPIA) requires agencies to report in their
Performance and Accountability Report an annual estimated amount of improper payments, total
outlays, and corrective action plans for all programs identified as high-risk. Farm Service
Agency’s Financial Management Division (FMD) is responsible for ensuring the agency
complies with IPIA requirements, including executing statistical samples of high-risk programs
and reporting the results to the Office of the Chief Financial Officer (OCFO) for inclusion in the
PAR. In FY 2006, FSA officials reported improper payments of over $2.8 billion, significantly
higher than the prior year’s reported improper payments of $50 million. In a prior audit of the FY
2005 estimate, we noted problems with the process used for developing the estimate. As a result,
the USDA Chief Financial Officer requested we perform an audit of FSA implementation of the
IPIA requirements for FY 2007.

During our FY 2005 audit of IPIA implementation, FSA officials revised their process for
developing estimates. For the FY 2006 PAR, FMD used FSA’s Operations Review and Analysis
Staff (ORAS) to perform sampling required to identify improper payments in FSA’s high-risk
programs and provide estimates for reporting in the PAR. ORAS officials contracted with a
statistician to develop sampling plans and provide projected improper payment estimates for the
high-risk programs. Also, ORAS officials established specific criteria for each high-risk program
(referred to as “test items”) that, if met, would cause program payments to be improper. Then,
ORAS officials directed County Operation Reviewers (COR) to review sampled payments in the
selected field offices against the test items it had developed and identify any improper payments.
Since this review by FSA for reporting in the FY 2006 PAR was still ongoing at the conclusion
of our audit of FY 2005 reporting, we were unable to evaluate its results. However, we did make
recommendations to the extent that we could at the time.

In preparation for estimating improper payments in the FY 2007 PAR, ORAS officials made
additional revisions to their process by redefining test items developed for each high-risk
program. ORAS also held a national training session for all CORs to ensure they understood the
test items and review process. In addition, to help ensure the accuracy of improper payment
estimates, FSA’s Administrator issued a memorandum on December 14, 2006, 1 that directed
(county) committees in field offices to take actions to mitigate improper payment errors resulting
from missing signatures and incomplete or missing documentation. The field offices were given
30 business days to obtain applicable signatures or supporting documentation, but only if the
participant was in compliance with program provisions, the correct participant received the
correct payment, and the payment was not in dispute.

For the 7 high-risk programs in the FY 2007 review, the contracted statistician randomly selected
a total of 9,632 payments in 537 field offices, totaling over $206.7 million. After CORs
completed reviews at each field office, they sent their reports to the applicable State offices for
review and also transmitted them to ORAS Headquarters. ORAS officials reviewed each report
to determine if CORs properly applied the test items to identify improper payments and if dollar
1
    Improper Payments Information Act (IPIA) of 2002 Guidance, December 14, 2006
Teresa C. Lasseter                                                                             4


amounts reported as improper were accurate. After all reports were completed and reviewed,
ORAS officials sent summary results of sampled payments to the contracted statistician, who
used this information to project estimates to be reported in the PAR.

OBJECTIVE

The objectives of this audit were to evaluate (1) the established criteria and programmatic
reviews for determining improper payments, (2) the statistical process used to select and estimate
the extent of improper payments, and (3) the corrective actions for improper payments identified
in the sample.

SCOPE AND METHODOLOGY

We performed our audit at the FSA National Office in Washington, D.C., and Alexandria,
Virginia. Also, we visited 15 field offices located in 10 States and Puerto Rico. (See exhibit B
for the list of field offices visited.) We made a judgmental selection of field offices, generally
based on the number and type of payments being sampled in the field offices and their
geographic locations. We reviewed 421 payments, totaling $8.6 million, in the 15 field offices.
Our audit fieldwork was conducted from March through October 2007.

We interviewed FSA Headquarters officials to gain an understanding of the process used for
estimating and reporting improper payments for its seven high-risk programs. Those programs
are: (1) Marketing Assistance Loans (MAL), (2) Loan Deficiency Payments (LDP), (3) Direct
and Counter-Cyclical Payments (DCP), (4) Crop Disaster Programs (CDP), (5) Conservation
Reserve Program (CRP), (6) Noninsured Assistance Program (NAP), and (7) Milk Income Loss
Contract (MILC). The programs had estimated outlays totaling $22.6 billion in FY 2007.

To accomplish our objectives, we also:

•   attended the FSA COR training session in February, 2007;
•   reviewed pertinent program regulations, policies, and handbooks and the guidance provided
    to CORs for identifying improper payments;
•   interviewed the statistician FSA contracted with;
•   reviewed the statistical sampling plans developed by FSA’s statistician;
•   interviewed field office staffs in the offices visited;
•   evaluated COR payment determinations for all sampled payments in the offices visited;
•   reviewed files for CORs that completed the sample payment reviews; and,
•   made farm visits for selected payments to verify eligibility.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.
Teresa C. Lasseter                                                                               5


FINDING AND RECOMMENDATIONS

1. FSA’s Improper Payment Review Process Has Improved

Our audit of FSA’s process for developing and reporting estimates of improper payments in its
high-risk programs disclosed that the process provided reliable estimates.

To evaluate FSA’s process for estimating improper payments, we selected field offices reviewed
by CORs. We reviewed all sampled payments to determine if the CORs’ conclusions were
accurate and supportable and if the criteria for defining improper payments were applied
consistently. We noted a considerable decrease in improper payment estimates for six of the
seven programs in 2007. In 2006, improper payment estimates ranged between 3.53 percent and
22.94 percent of program outlays, but in 2007, the estimates ranged between 0.37 percent and
13.14 percent of outlays. (See exhibit C.)

Following FY 2006, FSA officials made improvements in their process for estimating improper
payments. ORAS, along with program managers and FMD, developed specific criteria (a list of
test items) for 2007 that its reviewers used to determine whether sampled payments were proper.

We concluded the process FSA employed to estimate improper payments in its high-risk
programs has significantly improved the reliability of its estimates.

Overall, the CORs used the appropriate criteria to accurately determine whether sampled
payments were improper and appropriately documented support for their decisions. However, we
identified conditions, as described below, which could have impacted the estimates. These were
corrected by FSA officials before final projections were calculated.

Policy for Determining Lien Search Errors Questioned

FSA regulations require officials to conduct lien searches in relation to producers that apply for
MAL in time to gain the required security on loan collateral. 2 FSA’s MAL program handbook
includes a specific timeframe in which the action should be taken. ORAS officials included the
handbook requirement as a test item used by CORs in the sampled payments. 3 If lien searches
were not completed within the proper time period, CORs were to identify those as improper
payments. During the course of our audit, we identified lien searches in one field office that were
conducted prior to the timeframe required by the handbook. Because the lien searches were
performed outside the period specified in the handbook, the COR considered the loans as
improper, even though the necessary financing instruments to secure the government’s interest
were obtained.

We discussed this policy on several occasions with ORAS officials because of the substantial
impact it would have on projected improper payments. If such early lien searches were
considered improper payments, FSA projected improper MAL payments would have reached
2
    Code of Federal Regulations, Title 7, Part 1421, Paragraph 1421.104, dated January 1, 2006
3
    Handbook 8-LP, Revision 1, Paragraph 403b, dated June 9, 2003
Teresa C. Lasseter                                                                                6


$822 million. However, officials brought the issue to the attention of FSA’s Administrator before
final projections were made. The Administrator decided that field office staff should follow
program regulations which required that lien searches be performed (but not within the time
period given in the handbook). This decision resulted in a reduction of $364.2 million in the
estimate for improper payments in the MAL program. We concurred with the Administrator’s
decision.

During the exit conference on January 24, 2008, FSA officials stated they believed the handbook
requirement for conducting lien searches was a good requirement and it will be retained.
However, because the regulations take precedence over the agency’s handbook, the officials
redefined the improper payment test item for lien searches to reflect an improper payment only
when the required lien search was not performed prior to loan disbursement. FSA officials stated
that if lien searches are not conducted within the time period specified in the handbook for the
sampled loans, they will still be determined compliance errors but the loans will not be
considered improper. We concur with this determination.

Statistician’s Projection of Estimates Understated

We found that the contracted statistician did not use the FSA revised codes to identify lien search
errors. This resulted in the improper payment estimate for MAL to be understated by about
$176 million. This occurred when FSA initial codes given to the statistician to reflect improper
payments for lien searches were revised after officials reviewed the results of sampled payments
and implemented revised policy. The initial estimate of improper MAL payments was projected
at about $281 million but was revised to $457.6 million when the error was corrected by the
statistician. FSA failed to notice the error in the projected improper payment estimate reported to
FMD. We identified and reported the error to FSA officials prior to their final report of improper
payments to the OCFO.

During the exit conference, FSA officials explained that controls were in place for reviewing and
verifying data for the projected estimates. They stated that FSA staff verified control totals in the
data received from the statistician. However, because FSA had requested three different
improper MAL payment projections and because of time constraints, staff had not completed all
data verifications. FSA officials believed the error would have been identified had staff
reviewed all of the control totals. FSA should develop a procedure to ensure controls over the
estimation process are performed effectively and timely.

Improper Payments Not Identified

Our audit identified reportable, but immaterial, areas where the determination of improper
payments could be improved. We identified 18 improper payments not reported in 5 of the
15 field offices visited. We concluded these were isolated incidents and were not indicative of
COR review capabilities. The errors resulted in immaterial both over- and underpayments.

Of these 18 improper payments, 15 were in the CDP and NAP programs in 2 field offices and
related to late-payment interest due to the producers that had not been paid. Generally, we noted
Teresa C. Lasseter                                                                              7


that field office staff calculated program payments properly, but had not provided producers with
payments within a 30-day period, as required by regulation. Producers are to receive interest for
the days payments are late. As a result, underpayments of approximately $2,100 were made.
CORs did not identify and report these as improper payments. The two CORs involved stated
that they were aware of the requirement to review payments for the applicability of late-payment
interest, but they failed to do so in these cases.

There were three other minor errors in separate field offices that CORs had not identified during
their reviews of payment determinations. The first involved an error in the calculation for net
production for CDP. The second involved a CRP incentive payment the producer was not
entitled to receive. The third involved an input error made at the county office for an LDP
payment. We attributed each to oversight by the applicable COR.

In each instance, we provided FSA officials with the details of our analysis and corrections were
made before payment projections were made.

CONCLUSION

Based on our audit, the FSA processes used to identify and estimate improper payments resulted
in reliable improper payment estimates. However, we did identify needed revisions related to
lien searches and identified a statistical error that should have been identified by FSA during its
verification of statistical results.

Recommendation 1

Revise the agency’s guidance for conducting reviews of improper payments to reflect the revised
definition of an improper payment as it pertains to lien searches.

Agency Response

FSA officials agreed with the recommendation. In their response, dated March 12, 2008, FSA
officials stated that MAL test items were modified for the 2008 improper payment review of
2007 payments to indicate an improper payment only in those cases where the required lien
search was not performed before loan disbursement. In addition, the test items clearly identify
those cases where a lien search was performed before the loan request was made. The officials
provided a copy of the modified test items for our review.

OIG Position

We accept the management decision. For final action, FSA needs to follow its internal
procedures and provide OCFO with documentation showing the modified test item for lien
searches for Marketing Assistance Loans, conducted for the 2008 improper payment review of
2007 payments.
Teresa C. Lasseter                                                                             8


Recommendation 2

Develop a procedure to ensure controls over the estimation process are performed effectively and
timely.

Agency Response

FSA officials agreed with the recommendation. The officials stated that a two-person review of
the statistician’s data will be conducted to ensure the proper codes were used. Both reviewers
will initial the statistician’s log file to indicate the review was completed and data verified as
being correct before compilation of error rates.

OIG Position

We concur with the corrective action described for reviewing data received from the statistician
as being complete and accurate. To reach management decision, FSA needs to provide a written
procedure for reviewing the statistician’s data and a timeframe for implementing the procedure.
Exhibit A– Agency Response
                             Exhibit A – Page 1 of 6
Exhibit A– Agency Response
                             Exhibit A – Page 2 of 6
Exhibit A– Agency Response
                             Exhibit A – Page 3 of 6
Exhibit A– Agency Response
                             Exhibit A – Page 4 of 6
Exhibit A– Agency Response
                             Exhibit A – Page 5 of 6
Exhibit A– Agency Response
                             Exhibit A – Page 6 of 6
Exhibit B– Sites Visited During Field Work
                                                                                               Exhibit B – Page 1 of 1




                                     Programs 4 and Number of Payments Reviewed
    State         Field Office       CDP CRP DCP LDP MAL NAP MILC                                      Totals
    Colorado         Adams                   10     10     4     2                                        26
    Delaware           Kent                      10       10      10       10                 10           50
    Florida            Levy             10                10               10                              30
    Illinois         Iroquois                    10       10      10       10                              40
    Indiana            Cass                      10       10      10       10                              40
    Missouri          Platte                     10       10      10       10                              40
    New
                    Torrance            10                                          15                     25
    Mexico
    Ohio            Pickaway                     10       10      10       10                 10           50
                   Washington                                                       12                     12
    Tennessee         Tipton                     10       10      10       10                              40
    Virginia        New Kent            10                                                                 10
    Puerto
                     Arecibo                                                          3                      3
    Rico
                    Mayaguez            10                                                    10           20
                      Ponce             10                                                                 10
                      Utuado            10                                          15                     25
    Totals                              60       70       80      64       72       45        30          421




4
 Program acronyms: CDP (Crop Disaster Programs); CRP (Conservation Reserve Program); DCP (Direct and Counter-Cyclical
Payment Program); LDP (Loan Deficiency Payment Program); MAL (Marketing Assistance Loan Program); MILC (Milk Income
Loss Contract Program); and NAP (Noninsured Assistance Program)
Exhibit C – Improper Payments Reported FY 2006 and FY 2007
                    (dollars in millions)
                                                         Exhibit C   – Page 1 of 1




                              2006                                       2007
          2006      2006                      2007        2007
                             Total                                      Total
Program Estimated Improper                  Estimated   Improper
                           Percentage                                 Percentage
         Outlays Payments                    Outlays    Payments
                            IP Rate                                    IP Rate
 CDP      $2,365     $291    12.30%            $368       $25.3          6.76%
 CRP      $1,815      $64       3.53%         $1,851       $8.7           0.45%
 DCP      $8,546     $424       4.96%         $9,550      $37.0           0.37%
 LDP      $4,790     $443       9.25%         $4,071      $18.3           0.45%
 MAL      $7,950    $1,611     20.26%         $6,306     $457.6           7.52%
 MILC        $9        $0         N/A          $351        $7.7           2.17%
 NAP        $109      $25      22.94%           $64        $8.4         13.14%
Totals   $25,584    $2,858                   $22,561     $ 563.0
